94a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35460
Edwin Omar Flores Tejada; German Ventura
Hernandez, on behalf of themselves as indi­
viduals

AND ON BEHALF OF OTHERS SIMILARLY SITU­
ATED*, PETITIONERS-APPELLEES
V.

Elizabeth Godfrey, Field Office Director;
William P. Barr, Attorney General; Matthew T.
Albence, Acting Director of U.S. Immigration
and Customs Enforcement; Lowell Clark,
Warden; James McHenry, Director of Executive
Office for Immigration Review; Chad Wolf,
Acting Secretary, Department of Homeland
Security,** respondents-appellants
Argued and Submitted: Nov. 13, 2019
Pasadena, California
Filed: Apr. 7, 2020

Because the district court dismissed Arturo Martinez Banos as a
named plaintiff long before the orders at issue in this case, we have
removed him from the case caption.
" Pursuant to Federal Rule of Appellate Procedure 43(c)(2), Chad
Wolf is automatically substituted as the Acting Secretary of the U.S.
Department of Homeland Security and Matthew T. Albence is auto­
matically substituted as the Acting Director of U.S. Immigration and
Customs Enforcement.

95a
Appeal from the United States District Court
for the Western District of Washington
James L. Robart, District Judge, Presiding
OPINION
Ferdinand F. Fernandez, Milan D.
Before:
Smith, Jr., and Eric D. Miller, Circuit Judges.
Opinion by Judge Milan D. Smith, Jr.; Partial Con­
currence and Partial Dissent by Judge FERNANDEZ
OPINION
M. Smith, Circuit Judge:
Edwin Omar Flores Tejada and German Ventura
Hernandez (Plaintiffs) represent a certified class of aliens
with final removal orders who are placed in withholdingonly proceedings, and who are detained in the jurisdic­
tion of the Western District of Washington (the District)
for six months or longer without an individualized bond
hearing. In this suit, Plaintiffs challenged DefendantsAppellants’ (hereinafter, the Government1) alleged policy
and practice of subjecting class members to prolonged
detention without an individualized bond hearing before
1 We use the term “the Government” to refer collectively to the
following Defendants-Respondents who Plaintiffs sued in their offi­
cial capacities: (1) Elizabeth Godfrey, Field Office Director; (2) Wil­
liam P. Barr, U.S. Attorney General; (3) Matthew T. Albence, Acting
Director of U.S. Immigration and Customs Enforcement; (4) Lowell
Clark, Warden, (5) James McHenry, Director of the Executive Of­
fice for Immigration Review, (6) Chad Wolf, Acting Secretary of the
U.S. Department of Homeland Security. Our use of the uncapital­
ized term “the government” should not be construed as a reference
to the Defendants-Respondents.

96a
an immigration judge (I J). Plaintiffs claimed statutory
rights to such hearings pursuant to the immigration de­
tention statutes, as well as a constitutional due process
right to such hearings.
The district court granted partial summary judgment
for Plaintiffs and the class on their statutory claims and,
for that reason, granted partial summary judgment for
the Government on Plaintiffs’ due process claims. The
court entered a permanent injunction that requires
three things. First, based on our decision in Dioufv.
Napolitano, 634 F.3d 1081, 1086, 1092 & n.13 (9th Cir.
2011) (Diouf II), the Government must provide a class
member who it has detained for six months or longer
with a bond hearing before an IJ when the class mem­
ber’s release or removal is not imminent. Second,
based on our decision in Singh v. Holder, 638 F.3d 1196,
1203-04 (9th Cir. 2011), the Government must justify a
class member’s continued detention by clear and con­
vincing evidence showing that the alien is a flight risk or
a danger to the community. Third, the Government
must provide class members who remain detained even
after an initial bond hearing at six months with addi­
tional bond hearings every six months thereafter. The
Government urges us to reverse and vacate the final
judgment and permanent injunction on Plaintiffs’ statu­
tory claims.
This appeal presents the same core question we de­
cide today in Aleman Gonzalez v. Barr, No. 18-16465:
whether our construction of § 1231(a)(6) in Diouf II sur­
vives the Supreme Court’s decision in Jennings v. Ro­
driguez, 138 S. Ct. 830 (2018). Our answer remains the
same here. We affirm the district court’s judgment
and permanent injunction insofar as they conform to our

97a
construction of § 1231(a)(6) in Dioufll. We also affirm
insofar as the judgment and permanent injunction re­
quire the Government to the satisfy the constitutional
burden of proof we identified in Singh.
However, unlike Aleman Gonzalez, this appeal pre­
sents us with a different question regarding our con­
struction of § 1231(a)(6). The district court ordered
the Government to provide class members with addi­
tional bond hearings every six months. We hold that
the court erroneously imposed this requirement as a stat­
utory matter because we did not construe § 1231(a)(6) as
requiring this in Diouf II, nor do we find any support for
this requirement. We therefore partially reverse and
vacate the judgment and permanent injunction, and re­
mand for further proceedings.

FACTUAL AND PROCEDURAL BACKGROUND2
Edwin Flores Tejada and German Ventura Hernan­
dez joined this suit upon the filing of an amended com­
plaint and petition for a writ of habeas corpus in January
2017. Flores Tejada and Ventura Hernandez are noncit­
izens against whom the Government reinstated prior re­
moval orders pursuant to 8 U.S.C. § 1231(a)(5). The
Government detained and placed each in withholdingonly proceedings pursuant to 8 C.F.R. § 1208.31(e) after
an asylum officer determined that each had a reasonable
fear of persecution or torture if returned to his country
of origin. Plaintiffs alleged that the Government failed
to provide them with an individualized statutory bond
hearing before an IJ, in accordance with our court’s
2 We do not retrace the statutory and regulatory background set
forth in Aleman Gonzalez, and instead limit our focus to discussing
the distinct aspects of the proceedings in this case.

98a
precedents. On behalf of a putative class of similarly
situated aliens in the District, Plaintiffs claimed a stat­
utory right to an individualized bond hearing pursuant
to 8 U.S.C. § 1226(a) and our decision in Robbins v. Ro­
driguez, 804 F.3d 1060 (9th Cir. 2015) (.Rodriguez III).3
Plaintiffs further claimed a statutory right to a bond
hearing pursuant to any of the immigration detention
statutes as well as a constitutional due process right to
such a hearing.
After the amended complaint’s filing, we held in
Padilla-Ramirez v. Bible, 862 F.3d 881, 884-87 (9th Cir.
2017), amended by, 882 F.3d 826, 830-33 (9th Cir. 2018),
that aliens with reinstated removal orders who are
placed in withholding-only proceedings are detained
pursuant to § 1231(a)(6). Because of that decision, the
district court denied Plaintiffs’ request for a preliminary
injunction that would have required the Government to
provide bond hearings pursuant to the regulation appli­
cable to aliens detained pursuant to § 1226(a). 8 C.F.R.
§ 1236.1(d)(1). Thereafter, upon Plaintiffs’ motion, the
district court certified a class of: “[a]ll individuals who
3 Given the then-absence of Ninth Circuit case law, Plaintiffs
claimed that they were detained pursuant to § 1226(a), finding sup­
port in Guerra v. Shanahan, 831 F.3d 59 (2d Cir. 2016). In Guerra,
the Second Circuit held that aliens with reinstated final removal or­
ders who are placed in withholding proceedings are subject to deten­
tion pursuant to § 1226(a). Id. at 62-64. We expressly rejected
this approach in Padilla-Ramirez v. Bible, 862 F.3d at 888-89, as
amended, 882 F.3d at 834-35, to hold that such aliens are detained
pursuant to § 1231(a)(6). The Third Circuit has expressly adopted
our approach, Guerrero-Sanchez v. Warden York Cty. Prison, 905
F.3d 208, 216-19 (3d Cir. 2018), whereas the Fourth Circuit has ex­
pressly adopted the Second Circuit’s approach, Guzman Chavez v.
Hott, 940 F.3d 867, 876-77, 882 (4th Cir. 2019).

99a
(1) were placed in withholding only proceedings under
8 C.F.R. § 1208.31(e) in the [District] after having a re­
moval order reinstated, and (2) have been detained for
180 days (a) without a custody hearing or (b) since re­
ceiving a custody hearing.”
The parties cross-moved for summary judgment on
Plaintiffs’ claims. The magistrate judge recommended
granting partial summary judgment for Plaintiffs on
their statutory claims. The magistrate determined
that Diouf II requires the Government to provide class
members with an individualized bond hearing, except
for class members whose release or removal is not im­
minent.
The magistrate determined that “[c]lass
members must automatically receive such bond hear­
ings after they have been detained for 180 days and
every 180 days thereafter” pursuant to Diouf II, 634
F.3d at 1092, and Rodriguez III, 804 F.3d at 1085, 1089.
These hearings had to “comply with the other proce­
dural safeguards established in Singh and Rodriguez
III,” with the Government bearing the burden of justi­
fying continued detention by clear and convincing evi­
dence. The magistrate recommended partial summary
judgment for the Government on Plaintiffs’ due process
claims because “class members are entitled to relief un­
der § 1231(a)(6), as construed by the Ninth Circuit in
Diouf II.”
In the wake of Jennings, the parties notified the dis­
trict court of their views about Jennings's, impact on the
summary judgment motions. The court determined
that Diouf II and Jennings are not clearly irreconcila­
ble, and thus adopted and approved the magistrate’s
recommendations. The court entered a final judgment,

100a
and a permanent injunction for Plaintiffs on their statu­
tory claims. The Government timely appealed.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction over the appeal from the district
court’s final judgment pursuant to 28 U.S.C. § 1291.
“We review a grant of summary judgment de novo.”
Pavoni v. Chrysler Grp., LLC, 789 F.3d 1095, 1098 (9th
Cir. 2015). “We review permanent injunctions under
three standards: we review factual findings for clear
error, legal conclusions de novo, and the scope of the in­
junction for abuse of discretion.”
United States v.
Washington, 853 F.3d 946, 962 (9th Cir. 2017).
ANALYSIS
The Government contends that the district court
erred by relying on Diouf II to conclude that the class
members here are entitled to a bond hearing every 180
days before an IJ, at which the Government bears a
clear and convincing burden of proof. The Government
further argues that the district court impermissibly
“re-applied” the canon of constitutional avoidance to
§ 1231(a)(6) in contravention of Zadvydas v. Davis,
533 U.S. 678 (2001), and Clark v. Martinez, 543 U.S. 371
(2005). Most of the Government’s arguments here are
indistinguishable from those we have considered and re­
jected in Aleman Gonzalez.
We will not retread our analysis in Aleman Gonzalez,
but instead we reiterate our conclusions there that
apply equally here. First, Diouf IPs construction of
§ 1231(a)(6) to require an individualized bond hearing
for an alien subject to prolonged detention is not clearly
irreconcilable with Jennings. See Miller v. Gammie,
335 F.3d 889, 893 (9th Cir. 2003) (en banc). Consistent

101a
with Dioufll, 634 F.3d 1086, 1092 & n.13, we affirm the
judgment and injunction’s requirement that the Govern­
ment must provide class members with an individualized
bond hearing after six months of detention when a class
member’s release or removal is not imminent. Second,
Jennings does not abrogate our constitutional due pro­
cess holding in Singh regarding the applicable burden
of proof at the bond hearing. Consistent with Singh,
638 F.3d at 1203-04, we affirm the judgment and injunc­
tion’s requirement that the Government must bear a
clear and convincing burden of proof to justify an alien’s
continued detention. Third, the district court did not
improperly re-apply the canon of constitutional avoid­
ance to § 1231(a)(6) or violate Clark. Consistent with
Clark, 643 U.S. at 378, the judgment and injunction
apply the same construction of § 1231(a)(6) to all class
members.
Our affirmance of the judgment and injunction, how­
ever, goes no further. In addition to the foregoing re­
quirements we have affirmed, the district court agreed
with the magistrate judge’s recommendation to order
the Government to provide class members with addi­
tional statutory bond hearings every six months. The
district court imposed this additional bond hearings re­
quirement based on its conclusion that Jennings did not
address § 1231(a)(6) and that Diouf II remains binding.
That conclusion was error because we did not address
the availability of additional bond hearings every six
months in Diouf II. In fact, we have never squarely in­
terpreted § 1231(a)(6) to require them.
In Diouf II, we applied the canon of constitutional
avoidance to construe § 1231(a)(6) as “requiring an indi­
vidualized bond hearing, before an immigration judge,

102a
for aliens facing prolonged detention under that provi­
sion,” Dioufll, 634 F.3d at 1086 (emphasis added), sub­
ject to whether the alien’s release or removal is immi­
nent, id. at 1092 n.13. We explained that “[s]uch aliens
are entitled to release on bond unless the government
establishes that the alien is a flight risk or will be a dan­
ger to the community.” Id. at 1086. Although we sug­
gested that greater procedural safeguards are required
as the length of detention increases, we did so in the con­
text of construing § 1231(a)(6) to require a bond hearing
before an IJ after six months of detention, something
which the government’s post-Zadvydas regulations did
not provide. Id. at 1089-92. We did not apply the canon
to read any other requirements into § 1231(a)(6), let alone
an additional bond hearings requirement. Thus, the
court could not rely on Diouf II to sustain the require­
ment.
As the magistrate judge recognized, our decision in
Rodriguez III—not Diouf II—established an additional
bond hearings requirement in the context of an immi­
gration detention statute.4 In Rodriguez III, we relied
on Diouf IPs abstract discussion of the necessity of
greater procedural protections as the length of deten­
tion increases to hold that, in the context of § 1226(a),
“the government must provide periodic bond hearings
every six months so that noncitizens may challenge their
4 We question whether Rodriguez III could alone provide the ba­
sis for the additional bond hearings requirement for the § 1231(a)(6)
class here. Rodriguez III made clear that aliens detained pursuant
to § 1231(a)(6) were not class members in that case. Rodriguez III,
804 F.3d at 1086 (“Simply put, the § 1231(a) class does not exist.”).
Although Rodriguez III imposed additional procedural require­
ments, it did so only with respect to aliens detained pursuant to
§§ 1225, 1226(a), and 1226(c). Compare id. with id. at 1086-1090.

103a
continued detention as ‘the period of ... confine­
ment grows.’” Rodriguez III, 804 F.3d at 1089 (quot­
ing Diouf II, 634 F.3d at 1091).
Jennings defined “periodic bond hearing” to encom­
pass a bond hearing held after an initial six months of
detention, Jennings, 138 S. Ct. at 850-51, and rejected
the imposition of such a “periodic bond hearing” re­
quirement onto § 1226(a), id. at 847-48. Although we
have already explained in Aleman Gonzalez why Jen­
nings does not undercut our construction of § 1231(a)(6)
in Diouf II as requiring a bond hearing after six months
of detention, that determination cannot sustain the ad­
ditional bond hearings requirement the district court
imposed here. The court did not identify any authority
other than our now-reversed decision in Rodriguez III
to support its additional bond hearings requirement, nor
are we are aware of any. Rodriguez III cannot support
the additional bond hearings requirement the district
court ordered in its judgment and permanent injunction
given Jennings' reversal.
We have not previously considered whether
§ 1231(a)(6) can support an additional bond hearings re­
quirement. While Jennings did not directly address
such a requirement in the context of § 1231(a)(6), we find
its reasoning persuasive. Jennings made clear that
Zadvydas’s construction of § 1231(a)(6) to identify six
months as a presumptively reasonable length of deten­
tion was already “a notably generous application of the
constitutional-avoidance canon.” Jennings, 138 S. Ct.
at 843. Although Diouf IFs six-month bond hearing
construction coincides with Zadvydas's six-month pe­
riod, we find no support in either Zadvydas's reading of

104a
§ 1231(a)(6) or the statutory text itself to plausibly con­
strue the provision as requiring additional bond hear­
ings every six months. We accordingly reverse and va­
cate the judgment and permanent injunction for Plain­
tiffs in this regard.5
In doing so, we reverse and vacate the partial judg­
ment for the Government on Plaintiffs’ due process claims.
The district court determined that granting summary
judgment for Plaintiffs on the § 1231(a)(6) statutory
claim warranted summary judgment for the Govern­
ment on Plaintiffs’ due process claims. We understand
the district court to have effectively treated Plaintiffs’
due process claims as moot. That is no longer the case
given our decision today. Plaintiffs have requested a
remand to allow the district court to consider their con­
stitutional claims if we reversed on any statutory issues.
At oral argument, the Government did not object to such
a remand. We therefore conclude that a remand is ap­
propriate so that the district court can consider Plain­
tiffs’ constitutional claims. Cf. Evon v. Law Offices of
Sidney Mickell, 688 F.3d 1015,1035 n.12 (9th Cir. 2012).
CONCLUSION
The district court correctly determined that our con­
trolling construction of § 1231(a)(6) in Diouf II requires
the Government to provide a bond hearing to class mem­
bers detained in the District whose release or removal
is not imminent. The court also properly placed the ap­
propriate burden of proof on the Government at such a
6 We underscore that our vacatur of the judgment and permanent
injunction’s additional bond hearings requirement as a statutory
matter does not foreclose any class member from pursuing habeas
relief in accordance with Zadvydas.

105a
hearing. We affirm the final judgment and permanent
injunction to this effect.
We otherwise vacate the judgment and permanent
injunction insofar as they require, as a statutory matter,
that the Government provide class members with addi­
tional bond hearings every six months beyond the initial
bond hearing that Diouf II requires. Consequently,
we vacate the judgment for the Government on Plain­
tiffs’ due process claims and remand for further pro­
ceedings.
AFFIRMED in part, REVERSED and VACATED in
part, and REMANDED. Each party shall bear its own
costs.
Fernandez, Circuit Judge, concurring in part and dis­
senting in part:
I would vacate the district court’s judgment and per­
manent injunction entirely. Therefore, I concur in the
majority opinion, for the reasons stated therein, to the
extent that it vacates the judgment and permanent in­
junction and remands for further proceedings on Plain­
tiffs’ constitutional claim. However, in light of the views
I expressed in my dissenting opinion in Aleman Gonza­
lez v. Barr, No. 18-16465, slip op. at 58 (9th Cir. April 7,
2020), I respectfully dissent from the majority opinion
to the extent that it affirms the district court’s judgment
and leaves the permanent injunction in place.

106a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. C16-1454JLR
Arturo Martinez Banos, et al.
PLAINTIFFS-PETITIONERS
V.

Nathalie Asher, etal., defendants-respondents
Filed:

Apr. 4, 2018

ORDER ADOPTING REPORT AND RECOMMENDATION
I. INTRODUCTION
Before the court are the Report and Recommenda­
tion of United States Magistrate Judge Brian A. Tsuchida
(R&R (Dkt. # 77)) and Defendants-Respondents Nathalie
Asher, Lowell Clark, Thomas D. Homan, John. F. Kelly,
James McHenry, and Jefferson B. Sessions’s (collec­
tively, “the Government”) objections thereto (Obj. (Dkt.
# 78)). The Government and Plaintiff Edwin Flores
Tejada both subsequently filed notices of supplemental
authority. (See 1st PI. Not. (Dkt. # 80); Def. Not. (Dkt.
# 81); 2nd PI. Not. (Dkt. # 82).) Having carefully re­
viewed all of the foregoing, along with all other relevant
documents and the governing law, the court ADOPTS
the Report and Recommendation (Dkt. # 77).

107a
II.

BACKGROUND AND ANALYSIS

On January 23, 2018, Magistrate Judge Tsuchida issued a Report and Recommendation that recommends
granting in part and denying in part the parties’
cross-motions for summary judgment. (R&R at 2.)
The Government filed its objections on February 23,
2018, asking that the court reject Magistrate Judge
Tsuchida’s recommendation. (Obj. at 1.) A few days
later, on February 27, 2018, the Supreme Court decided
Jennings v. Rodriguez, — U.S. —, 138 S. Ct. 830 (2018),
which held that the Ninth Circuit had erroneously ap­
plied the canon of constitutional avoidance in finding
that 8 U.S.C. §§ 1225(b)(1), 1225(b)(2), and 1226(c) enti­
tle individuals to periodic bond hearings when their de­
tention becomes prolonged at six months. Jennings,
138 S. Ct. at 842-47. Both parties submitted notices of
supplemental authority discussing the impact of Jen­
nings on the case at hand. (See 1st PI. Not.; Def. Not.;
2nd PI. Not.)
Accordingly, the court first determines the impact, if
any, that Jennings has on the issues presented in the
Report and Recommendation. The court then consid­
ers the Report and Recommendation.
A.

Jennings and Its Impact
The Report and Recommendation relies upon Diouf
v. Napolitano, 634 F.3d 1081 (9th Cir. 2011) (“Diouf
II”), and its analysis of U.S.C. § 1231(a)(6) to conclude
that class members should “be afforded custody hear­
ings before an [immigration judge] . . . after they
have been detained for 180 days and every 180 days
thereafter.” (R&R at 10-11; see id at 7-11.) The Gov­
ernment argues that Jennings calls into question Diouf

■

108a
II, and consequently, the Report and Recommendation.
(See Def. Not. at 2-3.) The court disagrees.
Dioufll remains binding circuit authority unless it is
See
“clearly irreconcilable” with higher authority.
United States v. Robertson, 875 F.3d 1281,1291 (9th Cir.
2017). Under the “clearly irreconcilable” standard, “it
is not enough for there to be some tension between the
intervening high authority and prior circuit precedent.”
Lair v. Bullock, 697 F.3d 1200,1207 (9th Cir. 2012). So
long as the court “can apply . . . prior circuit prece­
dent without running afoul of the intervening author­
ity,” it must do so. Id. (internal quotation marks
omitted).
Diouf II and Jennings are not “clearly irreconcila­
ble.” See Robertson, 875 F.3d at 1291. In Jennings,
the Supreme Court reversed the Ninth Circuit’s hold­
ing, pursuant to the canon of constitutional avoidance,
regarding §§ 1225(b)(1), 1225(b)(2), and 1226(c). In so
concluding, Jennings explicitly contrasted §§ 1225 and
1226—the statutes at issue in that case—with
§ 1231(a)(6)—the statute at issue in Diouf II. See 138
S. Ct. at 843-44. For instance, the Supreme Court rec­
ognized that §§ 1225 and 1226 utilize the mandatory lan­
guage “shall,” whereas § 1231(a)(6) utilizes the discre­
tionary language “may”; the “may” language in
§ 1231(a)(6) suggests ambiguity that leaves space for
constitutional avoidance. Jennings, 138 S. Ct. at 843.
Thus, Jennings concerns statutes—§§ 1225 and 1226
—that were not at issue in Diouf II and are not at issue
here. See Jennings, 138 S. Ct. at 843; Diouf II, 634 F.3d
In fact, Jennings expressly distinguished
at 1086.
§ 1231(a)(6), the statute at issue here. See Jennings,
138 S. Ct. at 843-44. Thus, the court agrees with the

109a
other district courts to have considered the viability of
Diouf II after Jennings'. “[A]t a minimum . . .
Jennings left for another day the question of bond hear­
ing eligibility under [§] 1231(a), and at best, [Jennings
shows] that the Ninth Circuit correctly invokes the doc­
trine of constitutional avoidance” in Diouf II. See Ra­
mos v. Sessions, et al., No. 18-cv-00413, 2018 WL
1317276, at *3 (N.D. Cal. Mar. 13, 2018); see also BorjasCalix v. Sessions, et al., No. CV-16-00685-TUC-DCB,
2018 WL 1428154, at *6 (D. Ariz. Mar. 22, 2018) (holding
that Jennings did not impact Diouf II because Jennings
was specifically directed to § 1225, et seq., and not
§ 1231(a)(6)).
The court, therefore, concludes that DioufII remains
binding law.
B.

Report and Recommendation

The court next addresses the Report and Recommen­
dation. A district court has jurisdiction to review a Mag­
istrate Judge’s report and recommendation on disposi­
tive matters. Fed. R. Civ. P. 72(b). “The district
judge must determine de novo any part of the magis­
trate judge’s disposition that has been properly objected
to.” Id. “A judge of the court may accept, reject, or
modify, in whole or in part, the findings or recommen­
dations made by the magistrate judge.” 28 U.S.C.
§ 636(b)(1). The court reviews de novo those portions
of a report and recommendation to which a party specif­
ically objects in writing. United States v. Reyna-Tapia,
328 F.3d 1114, 1121 (9th Cir. 2003) (en banc). “The stat­
ute makes it clear that the district judge must review the
magistrate judge’s findings and recommendations de
novo if objection is made, but not otherwise.” Id.

110a
The Government’s objections do not raise any novel
issue that was not addressed by Magistrate Judge Tsuchida’s Report and Recommendation. (See generally
Obj.) Moreover, the court has thoroughly examined
the record before it and finds that the reasoning con­
tained in the Report and Recommendation is persuasive
in light of that record. Accordingly, the court indepen­
dently rejects the Government’s arguments in its objec­
tion for the same reasons as Magistrate Judge Tsuchida
did.
III. CONCLUSION
For the foregoing reasons, the court ADOPTS the
Report and Recommendation (Dkt. # 77) in its entirety.
The court DIRECTS the Clerk to send copies of this Or­
der to the parties and to the Honorable Brian A. Tsuchida.
Dated this 4th day of Apr. 2018.
/s/ JAMES L. ROBART
James L. Robart
United States District Judge

111a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. C16-1454-JLR-BAT
Arturo Martinez Banos, et al.,
PLAINTIFFS-PETITIONERS

v.
Nathalie Asher, et al., defendants-respondents
Filed:

Jan. 23, 2018

REPORT AND RECOMMENDATION
INTRODUCTION AND RELEVANT
PROCEDURAL HISTORY1
The Government2 has a practice of detaining non­
citizens who are subject to reinstated removal orders and
who are seeking withholding of removal, for prolonged
periods without providing custody hearings before im­
migration judges (“Us”). This 28 U.S.C. § 2241 habeas
1 A more detailed factual background and procedural history can be
found in the October 17,2017 Report and Recommendation. Dkt. 67.
2 The respondents in this action are the Seattle Field Office Direc­
tor for U.S. Immigration and Customs Enforcement (“ICE”), the Act­
ing Director of ICE, the Secretary of the Department of Homeland
Security (“DHS”), the Director of the Executive Office for Immigra­
tion Review, the Warden of the Northwest Detention Center, and
the United States Attorney General.

112a
class action challenges that practice in the Western Dis­
trict of Washington.
Edwin Flores Tejada3 (“Mr. Flores”) represents a
class defined as “all individuals who (1) were placed in
withholding only proceedings under 8 C.F.R. § 1208.31(e)
in the Western District of Washington after having a re­
moval order reinstated, and (2) have been detained for
180 days (a) without a custody hearing or (b) since re­
ceiving a custody hearing.” Dkt. 67 at 17 (R & R); Dkt.
70 at 3 (Order Adopting R & R). His second cause of ac­
tion seeks an order requiring the Government to provide
each class member with a custody hearing before an IJ
after six months of detention and every six months
thereafter. Dkt. 38 at 1111 96-98. His third cause of ac­
tion seeks a declaratory judgment that the Government’s
policy of detaining class members without custody hear­
ings violates the Due Process Clause. Id. at 1111 99-102.
The parties have filed cross-motions for summary
judgment on these claims. Dkts. 72 & 75. As discussed
below, the Court recommends that both Mr. Flores’s
and the Government’s motions be GRANTED in part and
DENIED in part. Specifically, judgment should be
granted in Mr. Flores’s and class members’ favor on the
second cause of action and in the Government’s favor on
the third cause of action.

3 The two other named plaintiffs, Arturo Martinez Banos and Ger­
man Ventura Hernandez, have been dismissed, as has plaintiffs’ first
cause of action. See Dkts. 53, 67, 70.

113a
LEGAL FRAMEWORK
A.

Reinstatement and withholding only proceedings

If a non-citizen who is removed pursuant to a removal
order subsequently reenters the United States illegally,
the original removal order may be reinstated by an au­
thorized official. Morales-Izquierdo v. Gonzales, 486
F.3d 484, 487 (9th Cir. 2007) (en banc); 8 C.F.R. § 241.8.
To reinstate a removal order, DHS must comply with
the procedures set forth in 8 C.F.R. § 241.8(a) and (b).4
Ortiz-Alfaro v. Holder, 694 F.3d 955, 956 (9th Cir. 2012).
When DHS reinstates a removal order, “the prior order
of removal is reinstated from its original date and is not
subject to being reopened or reviewed, the [non-citizen]
is not eligible and may not apply for any relief under this
chapter, and the [non-citizen] shall be removed under
the prior order at any time after the reentry.” 8 U.S.C.
§ 1231(a)(5).
Section 241.8(e), however, “creates an exception by
which [a non-citizen] who asserts ‘a fear of returning to
the country designated’ in his reinstated removal order
is ‘immediately’ referred to an asylum officer who must
determine if the [non-citizen] has a reasonable fear of
persecution or torture in accordance with 8 C.F.R.
4 These procedures include obtaining the prior order related to the
non-citizen, confirming that the non-citizen is the same person who
was previously removed, and confirming that the non-citizen unlaw­
fully reentered the United States. 8 C.F.R. § 241.8(a). An immigra­
tion officer must then give the non-citizen written notice of the de­
termination that he is subject to removal and provide him with
an opportunity to make a statement contesting the determination.
8 C.F.R. § 241.8(b). If these requirements are met, 8 C.F.R.
§ 241.8(c) provides that the non-citizen “shall be removed” under the
prior removal order.

114a
§ 208.31.” Ortiz-Alfaro, 694 F.3d at 956. If the asylum
officer finds that the non-citizen has not established a
reasonable fear of persecution or torture, and an IJ af­
firms this determination, the matter is returned to DHS
for execution of the reinstated order of removal without
the opportunity to appeal to the Board of Immigration
Appeals (“BIA”). 8 C.F.R. § 208.31(g). On the other
hand, if the asylum officer makes a positive reasonable
fear determination, the matter is referred to an IJ “for
consideration of the request for withholding of removal
only.” 8 C.F.R. § 208.31(e). The IJ’s decision to grant or
deny withholding of removal may be appealed to the BIA.
8 C.F.R. § 208.31(g)(2)(h). Judicial review of the BIA’s
determination is available in the Court of Appeals. See
Ortiz-Alfaro, 694 F.3d at 958-60.
In withholding only proceedings, the jurisdiction of
the IJ is limited to consideration of whether the non­
citizen is entitled to withholding or deferral of removal.
8 C.F.R. § 1208.2(c)(3)(i). If the IJ grants the non­
citizen’s application for withholding of removal, the non­
citizen may not be removed to the country designated in the
removal order but may be removed to an alternate coun­
try. See 8 U.S.C. § 1231(b)(2)(E); 8 C.F.R. § 1208.16(f);
Lanza v. Ashcroft, 389 F.3d 917, 933 (9th Cir. 2004).
While withholding only proceedings are pending be­
fore the IJ or the BIA, DHS cannot execute a reinstated
removal order. See Ortiz-Alfaro, 694 F.3d at 957;
8 U.S.C. § 1231(b)(3) (“[T]he Attorney General may not
remove [a non-citizen] to a country if the Attorney Gen­
eral decides that the [non-citizen’s] life or freedom would
be threatened in that country because of the [non­
citizen’s] race, religion, nationality, membership in a
particular social group, or political opinion.”).

115a
B.

Statutory authority for immigration detention

Two statutes govern the detention of non-citizens in
immigration proceedings: 8 U.S.C. § 1226 and 8 U.S.C.
§ 1231(a). “Where [a non-citizen] falls within this stat­
utory scheme can affect whether his detention is man­
datory or discretionary, as well as the kind of review
process available to him if he wishes to contest the ne­
cessity of his detention.” Prieto-Romero v. Clark, 534
F.3d 1053, 1057 (9th Cir. 2008).
Section 1226 provides the framework for the arrest,
detention, and release of non-citizens who are in re­
moval proceedings. 8 U.S.C. § 1226; see also Demore v.
Kim, 538 U.S. 510, 530 (2003) (“Detention during re­
moval proceedings is a constitutionally permissible part
of that process.”). Section 1226(a) grants DHS discre­
tionary authority to determine whether a noncitizen should
be detained, released on bond, or released on conditional
parole pending the completion of removal proceedings,
unless the non-citizen falls within one of the categories
of criminals described in § 1226(c), for whom detention
is mandatory.5 8 U.S.C. § 1226.
The Ninth Circuit has repeatedly held that after a
non-citizen has been detained under § 1226 for six months,
he is entitled to a so-called “Rodriguez” custody hear­
ing, at which the IJ must release him on bond or reason­
able conditions of supervision unless the government
5 Although the relevant statutory sections refer to the Attorney
General, the Homeland Security Act of 2002, Pub. L. No. 107-296
§ 471, 116 Stat. 2135 (2002), transferred most immigration law en­
forcement functions from the Department of Justice (“DOJ”) to
DHS, while the DOJ’s Executive Office for Immigration Review re­
tained its role in administering immigration courts and the BIA.
See Hernandez v. Ashcroft, 345 F.3d 824, 828 n.2 (9th Cir. 2003).

116a
proves by clear and convincing evidence that he poses a
flight risk or a danger to the community. Rodriguez v.
Robbins (“Rodriguez HI”), 804 F.3d 1060, 1084-85,1087
(9th Cir. 2015), cert, granted sub nom Jennings v. Ro­
driguez, 136 S. Ct. 2389 (2016); Rodriguez v. Robbins
(“Rodriguez II”), 715 F.3d 1132,1135 (9th Cir. 2013); see
also Singh v. Holder, 638 F.3d 1196,1203 (9th Cir. 2011);
Casas-Castrillon v. Dep’t of Homeland Sec., 535 F.3d
942, 949 (9th Cir. 2008). The Ninth Circuit has based
its holdings on the canon of constitutional avoidance,
finding that prolonged detention under § 1226 without
adequate procedural protections would raise “serious
constitutional concerns.” Casas-Castrillon, 535 F.3d at
950; Rodriguez III, 804 F.3d at 1068-69. Most recently in
Rodriguez III, the court held that IJs must consider the
length of detention, and “the government must provide
periodic bond hearings every six months so that noncit­
izens may challenge their continued detention as ‘the pe­
804 F.3d at 1089
riod of . . . confinement grows.
(quoting Diouf v. Napolitano (“Diouf II”), 634 F.3d
1081, 1091 (9th Cir. 2011)).
Section 1231(a) governs the detention and release of
non-citizens who have been ordered removed. It au­
thorizes detention in only two circumstances. During
the “removal period,” detention is mandatory. 8 U.S.C.
§ 1231(a)(2) (emphases added). The “removal period”
generally lasts 90 days, and it begins on the latest of the
following: (1) the date the order of removal becomes fi­
nal; (2) if the removal order is judicially reviewed and if
a court orders a stay of the removal of the non-citizen,
the date of the court’s final order; or (3) if the non-citizen
is detained or confined (except under an immigration
process), the date the non-citizen is released from deten­
tion or confinement. 8 U.S.C. § 1231(a)(1)(B). After the

117a
removal period expires, DHS has the discretionary au­
thority to continue to detain certain non-citizens or to
release them on supervision. 8 U.S.C. § 1231(a)(6);
Prieto-Romero, 534 F.3d at 1059.
In Diouf II, the Ninth Circuit extended the proce­
dural protections for § 1226 detainees to those detained
under § 1231(a)(6), holding “that an individual facing pro­
longed immigration detention under 8 U.S.C. § 1231(a)(6)
is entitled to release on bond unless the government es­
tablishes that he is a flight risk or a danger to the com­
munity.” 634 F.3d at 1082. Specifically, the court held
that the government must provide a custody hearing be­
fore an IJ to non-citizens who are denied release in their
six-month DHS custody reviews and whose release or
removal is not imminent. Id. at 1091-92 (“When deten­
tion crosses the six-month threshold and release or re­
moval is not imminent, the private interests at stake are
profound. Furthermore, the risk of an erroneous dep­
rivation of liberty in the absence of a hearing before a
neutral decisionmaker is substantial.”); see also id. at
1092 n.13 (“As a general matter, detention is prolonged
when it has lasted six months and is expected to continue
more than minimally beyond six months.”).
At the time this lawsuit was filed, the Ninth Circuit
had not yet decided whether noncitizens who are subject
to reinstated orders of removal and who are in withhold­
ing only proceedings are detained under § 1226(a) or
§ 1231(a). On July 6, 2017, however, the Ninth Circuit
held that such individuals are detained under § 1231(a).
Padilla-Ramirez v. Bible, 862 F.3d 881, 886 (9th Cir.
2017), pet. for rehearing filed (Aug. 19, 2017) (holding
that reinstated removal orders are administratively fi­
nal when they are reinstated, even if withholding only

118a
proceedings are pending). The court did not address
whether the petitioner was entitled a custody hearing
once his detention became prolonged. Id. at 884.
DISCUSSION
Summary judgment is appropriate when the “movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247 (1986). The parties agree
that the only material fact is undisputed: the Govern­
ment does not provide class members with automatic
custody hearings before IJs. Thus the questions be­
fore the Court are purely legal. First, does the Immi­
gration and Nationality Act require the Government to
provide class members with such hearings after six
months detention and every six months thereafter?
Second, does the Government violate class members’
due process rights by holding them for prolonged peri­
ods without an opportunity to contest their detention be­
fore a neutral arbiter?
A.

Class members are entitled to automatic custody
hearings every six months

As noted above, the Ninth Circuit in Diouf II held
“that an individual facing prolonged immigration deten­
tion under 8 U.S.C. § 1231(a)(6) is entitled to release on
bond unless the government establishes that he is a
flight risk or a danger to the community.” 634 F.3d at
1082. The primary dispute between the parties is wheth­
er the holding in DioufII applies to non-citizens who are
subject to reinstated removal orders and have applied
for withholding of removal; in other words, class mem­
bers. Every judge in this district who has considered

119a
the issue—including the judges assigned to this case—
has concluded that Dioufll governs. Mercado Gonza­
lez v. Asher, No. C15-1778-MJP-BAT, 2016 WL 871073,
at *3 (W.D. Wash. Feb. 16, 2016), adopted by 2016 WL
865351 (W.D. Wash. Mar. 7, 2016) (deciding, before
Padilla-Ramirez, that the Court need not determine
whether the petitioner was detained under § 1226(a) or
§ 1231(a)(6) because he had been detained for more
than six months and thus was entitled to a custody hear­
ing under either statute); Acevedo-Rojas v. Clark, No.
C14-1232-JLR, 2014 WL 6908540, at *6 (W.D. Wash.
Dec. 8, 2014) (“[I]f petitioner is denied release at her sixmonth DHS custody review and her release or removal
is not imminent, Diouf v. Napolitano (“Diouf II”) dic­
tates that she receive a bond hearing where the govern­
ment bears the burden of establishing that she presents
a flight risk or a danger to the community.”); GironCastro v. Asher, No. C14-867-JLR, 2014 WL 8397147, at
*2 (W.D. Wash. Oct. 2, 2014) (adopting R & R recom­
mending that the petitioner be granted a bond hearing
under Diouf II); Mendoza v. Asher, No. C14-811-JCC,
2014 WL 8397145, at *2 (W.D. Wash. Sept. 16, 2014) (re­
jecting government’s argument that it would improper
to “extend” Diouf II to non-citizens detained under
§ 1231(a)(6) following reinstatement of a removal order
because “Dioufll does not distinguish between catego­
ries of [non-citizens] whose detention is governed by
§ 1231(a)(6), and instead applies to every [non-citizen]
facing prolonged detention under the statute”).
The Government recognizes some of this authority,
but it urges the Court to reach a different result. Dkt.
75 at 7 n.l. The Government, however, merely recycles
arguments that the judges on this case have considered

120a
and rejected.6 See Mercado-Gonzalez, 2016 WL 871073,
at *4; Giron-Castro, No. C14-867-JLR-JPD, Dkt. 17 at
14-16 (W.D. Wash. Aug. 19, 2014), adopted by 2014 WL
8397147 (W.D. Wash. Oct. 2, 2014). The Government
offers no persuasive reason to reverse course on this is­
sue.
First, the Government argues this case is distinguisha­
ble from Diouf II because Diouf was ordered removed
after overstaying his student visa and could collaterally
challenge the removal order through an application to
reopen the removal proceedings, whereas class mem­
bers are subject to reinstated removal orders that can­
not be challenged. Id. at 8. This distinction is imma­
terial. The Ninth Circuit has made clear that “[rjegardless of the stage of the proceedings, the same important
interest is at stake—freedom from prolonged deten­
tion.” Diouf II, 634 F.3d at 1087.
The Government next asserts that this case is distin­
guishable from Diouf II because Diouf had never been
previously removed from the United States, while class
members have been removed before. Dkt. 75 at 8. Ac­
cording to the Government:
The government’s interest in detaining [non-citizens]
previously removed and who have illegally reentered
the United States presents qualitatively different
concerns than those addressed in Diouf II. Diouf
II, 634 F.3d at 1088 (“It is far from certain that
§ 1231(a)(6) detainees such as Diouf will be removed.”).
6 The Government also raises several new arguments, but these
are dependent on the Court finding that Diouf II does not apply. See
Dkt. 75 at 11-17. Because the Court concludes that Diouf II governs
this case, the other arguments are not addressed.

121a
In the absence of careful consideration of the govern­
ment’s interest in the continued detention of previ­
ously removed individuals who have illegally reen­
tered the United States, a sweeping extension of
Diouf IPs requirement of an individualized bond
hearing for individuals being held in custody pursu­
ant to 8 U.S.C. § 1231(a)(6) for more than 180 days
after reinstatement of their prior removal order is
unwarranted.
Dkt. 75 at 8. This argument is not well taken. The fact
that it was uncertain whether Diouf would be removed
was only one of four reasons the Ninth Circuit gave for
finding that the government’s interest in detaining §
1231(a)(6) detainees was not substantial enough to justify
denying a custody hearing. The court also found that the
government has an interest in ensuring that all non-cit­
izens are available for removal, detention is permitted if
it is found that the noncitizen poses a flight risk, and the
petitions for review may take years to resolve. Diouf
II, 634 F.3d at 1088. These reasons apply with full
force to class members and provide ample justification
for treating § 1231(a)(6) detainees subject to a rein­
stated order of removal the same way other
§ 1231(a)(6) detainees are treated.
Finally, the Government contends that unlike Diouf s
removal order, class members’ removal orders cannot
be judicially reviewed. Dkt. 75 at 9. But class mem­
bers are entitled to seek Ninth Circuit review of the
BIA’s final determination regarding their withholding
of removal applications. Thus the Ninth Circuit’s cen­
tral concern in Diouf II—prolonged detention while pe­
titions for review are resolved—is equally applicable
here.

122a
Contrary to the Government’s arguments, Court
need not “extend” Diouf II to find that it governs this
case. The Ninth Circuit’s holding in Diouf II was
broadly worded: “We hold that individuals detained
under § 1231(a)(6) are entitled to the same procedural
safeguards against prolonged detention as individuals
detained under § 1226(a).” 634 F.3d at 1084 (emphasis
added). The court recognized that § 1231(a)(6) encom­
passes non-citizens “such as Diouf, whose collateral chal­
lenge to his removal order (a motion to open) is pending
in the court of appeals, as well as to [non-citizens] who
have exhausted all direct and collateral review of their
removal orders but who, for one reason or another, have
not yet been removed from the United States,” yet it did
not narrow its holding. Id. at 1085 (emphasis added).
Although there are some differences between class
members and Diouf, none of those differences under­
mine the Ninth Circuit’s ultimate concern that “pro­
longed detention under § 1231(a)(6), without adequate
procedural protections, would raise ‘serious constitu­
tional concerns. y yy Diouf II, 634 F.3d at 1086 (quoting
Casas-Castrillon, 535 F.3d at 950). Class members’
current prolonged detention without the opportunity for
a hearing before an IJ raises such constitutional con­
cerns. Accordingly, they are entitled to relief.
Diouf II held that non-citizens detained under
§ 1231(a)(6) should have the same procedural safeguards
as those detained under § 1226(a). 634 F.3d at 1086.
Ninth Circuit authority thus dictates that class mem­
bers be afforded custody hearings before an IJ where
the Government bears the burden of justifying contin­
ued detention by clear and convincing evidence. Id. at
1086, 1092; see also Rodriguez III, 804 F.3d 1085-89;

123a
Singh, 638 F.3d at 1203. Class members must automat­
ically receive such hearings after they have been de­
tained for 180 days and every 180 days thereafter.7
Diouf II, 634 F.3d at 1092; Rodriguez III, 804 F.3d at
1085, 1089. In addition, the custody hearings must com­
ply with the other procedural safeguards established in
Singh and Rodriguez III. As detailed in the Court’s
proposed Order, the Government should be required to
report to the Court on its execution of the Court’s order,
and the Court should retain jurisdiction over any dis­
putes that arise between the parties on this issue.
In sum, judgment should be granted in class mem­
bers’ favor on the second cause of action. It is past time
for the Government to follow the law of this Circuit as
established in Diouf II.
B. Class members are not entitled to relief on their due
process claim
It is well established that the Court must avoid reach­
ing constitutional questions in advance of the necessity
of deciding them. See, e.g., Rosenberg v. Fleuti, 374
U.S. 499, 451 (1963); Diouf II, 634 F.3d at 1086 (declin­
ing to reach due process claim where issue could be
resolved on non-constitutional grounds). Because the
7 There is one caveat: “If the 180-day threshold has been crossed,
but the [non-citizen’s] release or removal is imminent, DHS is not
required to conduct a 180-day review, see 8 C.F.R. § 241.4(k)(3),
and neither should the government be required to afford the [non­
citizen] a hearing before an immigration judge.” Diouf II, 634 F.3d
at 1092 n.13. However, “DHS should be encouraged to afford a
[non-citizen] a hearing before an immigration judge before the 180day threshold has been reached if it is practical to do so and it has
already become clear that the [noncitizen] is facing prolonged deten­
tion.” Id. (emphasis in original).

124a
Court has concluded that class members are entitled to
relief under § 1231(a)(6), as construed by the Ninth Cir­
cuit in Diouf II, it should not resolve the question of
whether the Government also violated the Due Process
Clause. Accordingly, judgment should be granted in
the Government’s favor on the third cause of action.
CONCLUSION AND RIGHT TO OBJECT
Both the parties’ cross-motions for summary judg­
ment (Dkts. 72 & 75) should be GRANTED in part and
DENIED in part. A proposed Order that provides ad­
ditional details regarding this recommendation is at­
tached.
This Report and Recommendation is not an appeala­
ble order. Therefore a notice of appeal seeking review
in the Court of Appeals for the Ninth Circuit should not
be filed until the assigned District Judge enters a judg­
ment in the case. Objections, however, may be filed
and served upon all parties no later than February 7,
2018. The Clerk should note the matter for February 9,
2018, as ready for the District Judge’s consideration if
no objection is filed. If objections are filed, any re­
sponse is due within 14 days after being served with the
objections. A party filing an objection must note the
matter for the Court’s consideration 14 days from the
date the objection is filed and served. The matter will
then be ready for the Court’s consideration on the date
the response is due. Objections and responses shall not
exceed ten pages. The failure to timely object may af­
fect the right to appeal.

125a
DATED this 23rd day of Jan., 2018.
/s/

BRIAN A. TSUCHIDA
Brian A. Tsuchida
United States Magistrate Judge

126a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. C16-1454JLR-BAT
Arturo Martinez Banos, et al.
PLAINTIFFS-PETITIONERS
V.

Nathalie Asher, et al., defendants-respondents
Filed:

Dec. 11, 2017

ORDER ADOPTING REPORT AND RECOMMENDATION
I.

INTRODUCTION

This matter comes before the court on the Report and
Recommendation of United States Magistrate Judge
Brian A. Tsuchida (R&R (Dkt. # 67)) and DefendantsRespondents Nathalie Asher, Lowell Clark, Thomas D.
Homan, John F. Kelly, James McHenry, and Jefferson
B. Sessions’s (collectively, “the Government”) objec­
tions thereto (Objections (Dkt. # 68)). Having care­
fully reviewed all of the foregoing, along with all other
relevant documents, and the governing law, the court
ADOPTS the Report and Recommendation (Dkt. # 67).

127a
II. STANDARD OF REVIEW
A district court has jurisdiction to review a Magis­
trate Judge’s report and recommendation on dispositive
matters. Fed. R. Civ. P. 72(b). “The district judge must
determine de novo any part of the magistrate judge’s dis­
position that has been properly objected to.” Id. “A
judge of the court may accept, reject, or modify, in whole
or in part, the findings or recommendations made by the
magistrate judge.” 28 U.S.C. § 636(b)(1). The court
reviews de novo those portions of the report and recom­
mendation to which specific written objection is made.
United States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th
Cir. 2003) (en banc). “The statute makes it clear that
the district judge must review the magistrate judge’s
findings and recommendations de novo if objection is
made, but not otherwise.” Id.
III.

DISCUSSION

The Government’s objections do not raise any novel
issue that was not addressed by Magistrate Judge
Tsuchida’s Report and Recommendation. Moreover,
the court has thoroughly examined the record before it
and finds the Magistrate Judge’s reasoning persuasive
in light of that record. Accordingly, the court indepen­
dently rejects the Government’s arguments made in its
objections for the same reasons as Magistrate Judge
Tsuchida did.
IV.

CONCLUSION

For the foregoing reasons, the court ADOPTS the
Report and Recommendation (Dkt. # 67) in its entirety.
The court DIRECTS the Clerk to send copies of this Or­
der to the parties and to the Honorable Brian A.
Tsuchida.

128a
Dated this 11th day of Dec., 2017.
/s/ JAMES L. ROBART
James L. Robart
United States District Judge

129a
APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
Case No. C16-1454-JLR-BAT
Arturo Martinez Banos, et al.
PLAINTIFFS-PETITIONERS
V.

Nathalie Asher, et al., defendants-respondents
Filed:

Oct. 17, 2017

REPORT AND RECOMMENDATION
INTRODUCTION
The Government1 has a practice of detaining non­
citizens who are subject to reinstated removal orders and
who are seeking withholding of removal, for prolonged
periods without providing custody hearings before im­
migration judges (“Us”). This 28 U.S.C. § 2241 immi­
gration habeas action and putative class action chal-

1 The respondents in this action are the Seattle Field Office Direc­
tor for U.S. Immigration and Customs Enforcement (“ICE”), the Act­
ing Director of ICE, the Secretary of the Department of Homeland
Security (“DHS”), the Director of the Executive Office for Immigra­
tion Review, the Warden of the Northwest Detention Center, and
the United States Attorney General.

130a
lenges that practice in the Western District of Washing­
ton. Plaintiffs2 seek injunctive and declaratory relief
on behalf of themselves and a class defined as “All indi­
viduals who are placed in withholding only proceedings
under 8 C.F.R. § 1208.31(e) in the Western District of
Washington who are detained or subject to an order of
detention.”
The Government has filed an amended motion to dis­
miss plaintiffs’ individual claims, Dkt. 57, and plaintiffs
have filed an amended motion for class certification,
Dkt. 41. As discussed below, the Court recommends
that the Government’s motion to dismiss be GRANTED
in part and DENIED in part and that plaintiffs’ motion
for class certification be GRANTED subject to amend­
ment of the class definition.3
LEGAL FRAMEWORK
A.

Reinstatement and withholding only proceedings

If a non-citizen who is removed pursuant to a removal
order subsequently reenters the United States illegally,
the original removal order may be reinstated by an au­
thorized official. Morales-Izquierdo v. Gonzales, 486
F.3d 484, 487 (9th Cir. 2007) (en banc); 8 C.F.R. § 241.8.
2 This lawsuit was initiated by Arturo Martinez Banos (“Mr. Mar­
tinez”), a native and citizen of Mexico. The amended petition added
Edwin Flores Tejada (“Mr. Flores”) and German Ventura Hernan­
dez (“Mr. Ventura”), natives and citizens of El Salvador and Mexico,
respectively. On July 11, 2017, the Honorable James L. Robart
granted the Government’s motion to dismiss Mr. Martinez and his
claims. Dkt. 53. Mr. Flores and Mr. Ventura are currently the
named plaintiffs.
3 Because the issues have been thoroughly briefed by the parties,
oral argument would not be of assistance to the Court. Accordingly,
the requests for oral argument are DENIED.

131a
To reinstate a removal order, DHS must comply with
the procedures set forth in 8 C.F.R. § 241.8(a) and (b).4
Oritz-Alfaro v. Holder, 649 F.3d 955, 956 (9th Cir. 2012).
When DHS reinstates a removal order, “the prior order
of removal is reinstated from its original date and is not
subject to being reopened or reviewed, the [non-citizen]
is not eligible and may not apply for any relief under this
chapter, and the [non-citizen] shall be removed under
the prior order at any time after the reentry.” 8 U.S.C.
§ 1231(a)(5).
Section 241.8(e), however, “creates an exception by
which [a non-citizen] who asserts ‘a fear of returning to
the country designated’ in his reinstated removal order
is ‘immediately’ referred to an asylum officer who
must determine if the [non-citizen] has a reasonable fear
of persecution or torture in accordance with 8 C.F.R.
§208.31.” Ortiz-Alfaro, 694 F.3d at 956. If the asylum
officer finds that the non-citizen has not established a
reasonable fear of persecution or torture, and an IJ af­
firms this determination, the matter is returned to DHS
for execution of the reinstated order of removal without
the opportunity to appeal to the Board of Immigration
Appeals (“BIA”). 8 C.F.R. § 208.31(g). On the other
hand, if the asylum officer makes a positive reasonable
4 These procedures include obtaining the prior order related to the
non-citizen, confirming that the-non-citizen is the same person who
was previously removed, and confirming that the non-citizen unlaw­
fully reentered the United States. 8 C.F.R. § 241.8(a). An immi­
gration officer must then give the non-citizen written notice of the
determination that he is subject to removal and provide him with an
opportunity to make a statement contesting the determination.
8 C.F.R. § 241.8(b). If these requirements are met, 8 C.F.R.
§ 241.8(c) provides that the non-citizen “shall be removed” under the
prior removal order.

132a
fear determination, the matter is referred to an IJ “for
consideration of the request for withholding of removal
only.” 8 C.F.R. § 208.31(e). The IJ’s decision to grant
or deny withholding of removal may be appealed to the
BIA. 8 C.F.R. § 208.31(g)(2)(ii). Judicial review of the
BIA’s determination is available in the Court of Appeals.
See Ortiz-Alfaro, 694 F.3d at 958-60.
In withholding only proceedings, the jurisdiction of
the IJ is limited to consideration of whether the non­
citizen is entitled to withholding or deferral of removal.
8 C.F.R. § 1208.2(c)(3)(i). If the IJ grants the non­
citizen’s application for withholding of removal, the non­
citizen may not be removed to the country designated
in the removal order but may be removed to an alternate
See 8 U.S.C. § 1231(b)(2)(E); 8 C.F.R.
country.
§ 1208.16(f); Lanza v. Ashcroft, 389 F.3d 917, 933 (9th
Cir. 2004).
While withholding-only proceedings are pending be­
fore the IJ or the BIA, DHS cannot execute a reinstated
removal order. See Ortiz-Alfaro, 694 F.3d at 957;
8 U.S.C. § 1231(b)(3) (“[T]he Attorney General may not
remove [a non-citizen] to a country if the Attorney Gen­
eral decides that the [non-citizen’s] life or freedom would
be threatened in that country because of the [non­
citizen’s] race, religion, nationality, membership in a
particular social group, or political opinion.”).
B.

Statutory authority for immigration detention

Two statutes govern the detention of non-citizens in
immigration proceedings: 8 U.S.C. § 1226 and 8 U.S.C.
§ 1231(a). “Where [a non-citizen] falls within this stat­
utory scheme can affect whether his detention is man­
datory or discretionary, as well as the kind of review

133a
process available to him if he wishes to contest the ne­
cessity of his detention.” Prieto-Romero v. Clark, 534
F.3d 1053, 1057 (9th Cir. 2008).
Section 1226 provides the framework for the arrest,
detention, and release of non-citizens who are in removal
proceedings. 8 U.S.C. § 1226; see also Demote v. Kim,
538 U.S. 510, 530 (2003) (“Detention during removal pro­
ceedings is a constitutionally permissible part of that
process.”). Section 1226(a) grants DHS discretionary
authority to determine whether a noncitizen should be
detained, released on bond, or released on conditional
parole pending the completion of removal proceedings,
unless the non-citizen falls within one of the categories
of criminals described in § 1226(c), for whom detention
is mandatory.5 8 U.S.C. § 1226.
The Ninth Circuit has repeatedly held that after a
non-citizen has been detained under § 1226 for six
months, he is entitled to a so-called “Rodriguez” custody
hearing, at which the IJ must release him on bond or
reasonable conditions of supervision unless the govern­
ment proves by clear and convincing evidence that he
poses a flight risk or a danger to the community. Ro­
driguez v. Robbins (“Rodriguez IIP’), 804 F.3d 1060,
1084-85,1087 (9th Cir. 2015), cert, granted sub nom Jen­
nings v. Rodriguez, 136 S. Ct. 2389 (2016); Rodriguez v.
Robbins (“Rodriguez IP’), 715 F.3d 1132, 1135 (9th Cir.
5 Although the relevant statutory sections refer to the Attorney
General, the Homeland Security Act of 2002, Pub. L. No. 107-296
§ 471, 116 Stat. 2135 (2002), transferred most immigration law en­
forcement functions from the Department of Justice (“DOJ”) to
DHS, while the DOJ’s Executive Office for Immigration Review re­
tained its role in administering immigration courts and the BIA.
See Hernandez v. Ashcroft, 345 F.3d 824, 828 n.2 (9th Cir. 2003).

134a
2013); see also Singh v. Holder, 638 F.3d 1196,1203 (9th
Cir. 2011); Casas-Castrillon v. Dep’t of Homeland Sec.,
535 F.3d 942, 949 (9th Cir. 2008). The Ninth Circuit has
based its holdings on the canon of constitutional avoidance,
finding that prolonged detention under § 1226 without ad­
equate procedural protections would raise “serious con­
stitutional concerns.” Casas-Castrillon, 535 F.3d at 950;
Rodriguez III, 804 F.3d at 1068-69. Most recently in
Rodriguez 111, the court held that IJs must consider the
length of detention, and “the government must provide
periodic bond hearings every six months so that noncit­
izens may challenge their continued detention as ‘the pe­
riod of . . . confinement grows. y yy 804 F.3d at 1089
(quoting Diouf v. Napolitano (“Diouf II”), 634 F.3d
1081, 1091 (9th Cir. 2011)).
Section 1231(a) governs the detention and release of
non-citizens who have been ordered removed. It au­
thorizes detention in only two circumstances. During the
“removal period,” detention is mandatory. 8 U.S.C.
§ 1231(a)(2) (emphases added). The “removal period”
generally lasts 90 days, and it begins on the latest of the
following:. (1) the date the order of removal becomes fi­
nal; (2) if the removal order is judicially reviewed and if
a court orders a stay of the removal of the non-citizen,
the date of the court’s final order; or (3) if the non-citizen
is detained or confined (except under an immigration
process), the date the non-citizen is released from de­
tention or confinement. 8 U.S.C. § 1231(a)(1)(B). Af­
ter the removal period expires, DHS has the discretion­
ary authority to continue to detain certain non-citizens or
to release them on supervision. 8 U.S.C. § 1231(a)(6);
Prieto-Romero, 534 F.3d at 1059.

135a
In Diouf II, the Ninth Circuit extended the proce­
dural protections for § 1226 detainees to those detained
under § 1231(a)(6), holding “that an individual facing
prolonged immigration detention under 8 U.S.C.
§ 1231(a)(6) is entitled to release on bond unless the gov­
ernment establishes that he is a flight risk or a danger
to the community.” 634 F.3d at 1082. Specifically, the
court held that the government must provide a custody
hearing before an IJ to non-citizens who are denied re­
lease in their six-month DHS custody reviews and whose
release or removal is not imminent. Id. at 1091-92
(“When detention crosses the six-month threshold and
release or removal is not imminent, the private interests
at stake are profound. Furthermore, the risk of an er­
roneous deprivation of liberty in the absence of a hear­
ing before a neutral decisionmaker is substantial.”); see
also id. at 1092 n.13 (“As a general matter, detention is
prolonged when it has lasted six months and is expected
to continue more than minimally beyond six months.”).
At the time this lawsuit was filed, the Ninth Circuit
had not yet decided whether noncitizens who are subject
to reinstated orders of removal and who are in withhold­
ing only proceedings are detained under § 1226(a) or
§ 1231(a). On July 6, 2017, however, the Ninth Circuit
held that such individuals are detained under § 1231(a).
Padilla-Ramirez v. Bible, 862 F.3d 881, 886 (9th Cir.
2017), pet. for rehearing filed (Aug. 19, 2017) (holding
that reinstated removal orders are administratively fi­
nal when they are reinstated, even if withholding only
proceedings are pending). The court did not address
whether the petitioner was entitled a custody hearing
once his detention became prolonged. Id. at 884.

136a
BACKGROUND
A.

Mr. Flores

On December 21, 2015, Mr. Flores was arrested by
ICE officers and transported to the Northwest Deten­
tion Center. Dkt. 38 at 11 77. Because he had been or­
dered removed previously and had reentered the United
States without inspection, ICE reinstated his original
removal order. See id. at H 76. Mr. Flores expressed
a fear of returning to El Salvador and was referred to
an asylum officer for a reasonable fear interview. See
id. at HH 76-77. The asylum officer found that Mr. Flo­
res demonstrated a reasonable fear of torture and re­
ferred his case to an IJ for withholding only proceed­
ings. Id. at H 77.
On August 30, 2016, after 252 days in detention, an IJ
held a custody hearing but found that she did not have
jurisdiction to order his release because his withholding
only proceedings were pending. Dkt. 44-1 at 32; Dkt.
38 at H 78. Mr. Flores appealed to the BIA. Dkt. 38 at
11 79. While his BIA appeal was pending, he joined this
lawsuit. Dkt. 38. On February 3, 2017, the BIA deter­
mined that he was entitled to a custody hearing. Dkt. 441 at 36-38. On February 16, 2017, the IJ held a custody
hearing and denied Mr. Flores’s request for release,
finding that he presented a flight risk. Dkt. 44-2.
On March 7, 2017, an IJ denied Mr. Flores’s applica­
tion for withholding of removal. Dkt. 57-1 at 11 20. The
BIA dismissed Mr. Flores’s appeal on July 14, 2017.
Id. at 111 21-22. On August 5, 2017, Mr. Flores filed a
petition for review in the Ninth Circuit Court of Ap­
peals, and his removal was temporarily stayed. Dkt.
60-1 at 5-6.

137a
B.

Mr. Ventura

On October 18, 2016, ICE officers arrested Mr. Ven­
tura and transported him to the Northwest Detention
Center. Dkt. 38 at H 84. Like Mr. Flores, Mr. Ventura
had a prior removal order reinstated and, after express­
ing a fear of return to his home country, was placed in
withholding only proceedings. Id. He joined this law­
suit on January 31, 2017, after being detained for 105
days. Dkt. 38. On March 14, 2017, an IJ denied his re­
quest for withholding of removal. Dkt. 57-2 at 11 8. He
did not appeal, and on April 25, 2017, he was removed to
Mexico. Id. at 1IH 9-10.
C.

Relevant procedural history

In September 2016, Mr. Martinez, who has since been
dismissed, initiated this lawsuit to obtain custody hear­
ings for non-citizens as soon as they were placed in with­
holding only proceedings or, at the latest, after six
months detention. Dkt. 1. He argued that putative
class members were subject to detention under 8 U.S.C.
§ 1226(a), the statute that governs detention of non­
citizens before a final order of removal is entered, and
therefore were entitled to immediate custody hearings
under Rodriguez III. Alternatively, he maintained
that if detention was authorized by 8 U.S.C. § 1231(a),
the statute that provides for detention of non-citizens
who are subject to a final order of removal, putative class
members were entitled to custody hearings after 180
days in detention under Dioufll.
In October 2016, Mr. Martinez filed a motion for class
certification, Dkt. 6, and the following month, the Gov­
ernment moved to dismiss his individual claims, Dkt. 16.
In February 2017, after receiving leave of the Court, Mr.

138a
Martinez filed an amended habeas petition that brought
the same substantive claims as the original petition but
added Mr. Flores and Mr. Ventura. Dkt. 38. Plaintiffs
also withdrew their original motion for class certifica­
tion and filed an amended motion. Dkt. 41. The Gov­
ernment then filed a motion to dismiss Mr. Flores’s and
Mr. Ventura’s individual claims. Dkt. 44.
In March 2017, the undersigned recommended that
the Government’s motion to dismiss Mr. Martinez’s in­
dividual claims be denied and the motion to dismiss Mr.
Flores’s and Mr. Ventura’s claims be stricken. Dkt. 49.
On July 11, 2017, the Honorable James L. Robart de­
clined to adopt recommendation as to Mr. Martinez, dis­
missing him and his claims because he was not detained
at the time he initiated the lawsuit. Dkt. 53. Judge
Robart, however, agreed to strike the Government’s
second motion to dismiss because the motion was filed
in violation of the Local Rules. Id. Judge Robart re­
ferred the matter to the undersigned for further pro­
ceedings.
The Government then filed an amended motion to
dismiss. Dkt. 56. After that motion was fully briefed,
the Court directed supplemental briefing regarding the
proposed class definition. Dkt. 62. The Court con­
cluded that the proposed class definition was overbroad
and sua sponte offered an amended class definition:
“All individuals who (1) were placed in withholding only
proceedings under 8 C.F.R. § 1208.31(e) in the Western
District of Washington after having a removal order re­
instated, and (2) have been detained for 180 days (a)
without a custody hearing or (b) since receiving a cus­
tody hearing.” Id. at 2. The Court ordered the parties

139a
to respond to the proposal, which they have done.
Dkts. 64-66.
DISCUSSION
A.

The Government’s amended motion to dismiss

The Government moves to dismiss Mr. Flores’s and
Mr. Ventura’s individual claims. See Dkt. 61. It ar­
gues (1) Mr. Flores’s claims are not ripe, (2) Mr. Flores’s
and Mr. Ventura’s claims are moot, (3) plaintiffs lack
standing to seek the requested relief, and (4) plaintiffs’
claims fail on the merits. As discussed below, the Gov­
ernment correctly argues that Mr. Ventura’s claims are
moot and that plaintiffs’ first cause of action, which re­
quests immediate custody hearings, should be dismissed.
Otherwise, the Government’s motion to dismiss should
be denied.
1.

Legal standards

The Government brings its motion to dismiss under
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6).
Rule 12(b)(1) permits the court to dismiss a claim for
lack of subject matter jurisdiction. Warren v. Fox
Family Worldwide, Inc., 328 F.3d 1136, 1140 (9th Cir.
2003). The burden of establishing subject matter juris­
diction rests upon the party asserting jurisdiction.
Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S.
375, 377 (1994). A Rule 12(b)(1) challenge can be either
facial, confining the inquiry to the allegations in the
complaint, or factual, permitting the Court to look be­
yond the complaint to declarations or other evidence in
the record. Savage v. Glendale Union High Sch., Disk
No. 205, 343 F.3d 1036, 1039 n. 2 (9th Cir. 2003). When
considering a factual attack, the Court may “resolve fac­
tual disputes concerning the existence of jurisdiction.”

140a
McCarthy v. United States, 850 F.2d 558, 560 (9th Cir.
1988). In reviewing a facial attack, the Court applies
the same legal standard that it would in considering a
Rule 12(b)(6) motion to dismiss. Leite v. Crane Co., 749
F.3d 1117, 1121 (9th Cir. 2014).
To survive a Rule 12(b)(6) motion to dismiss, “a com­
plaint must contain sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (cit­
ing Bell Atl. Cory. v. Twombly, 550 U.S. 544, 570 (2007)).
The complaint may be dismissed if it lacks a cognizable
legal theory or states insufficient facts to support a cog­
nizable legal theory. Zixiang v. Kerry, 710 F.3d 995,
999 (9th Cir. 2013). When considering a Rule 12(b)(6)
motion, the Court accepts all facts alleged in the com­
plaint as true. Barker v. Riverside Cnty. Office of Educ.,
584 F.3d 821, 824 (9th Cir. 2009).
2.

Mr. Flores’s claims are justiciable

“Under Article III [of the Constitution], a federal
court only has jurisdiction to hear claims that present an
actual ‘case or controversy.’” Ariz. Right to Life Polit­
ical Action Comm. v. Bayless, 320 F.3d 1002, 1006 (9th
Cir. 2003) (quoting Allen v. Wright, 468 U.S. 737, 750
(1984)). In a class action, at least one named plaintiff
must satisfy Article Ill’s justiciability requirements.
Hodgers-Durgin v. de la Vina, 199 F.3d 1037, 1044-45
(9th Cir. 1999); Huynh v. Chase Manhattan Bank, 465
F.3d 992,1000 n.7 (9th Cir. 2006). The Government ar­
gues that Mr. Flores’s claims must be dismissed based
on the doctrines of standing, ripeness, and mootness, all
of which originate in the “case or controversy” require­
ment. The Court disagrees.

141a
a.

Standing

To establish Article III standing, a plaintiff must
show (1) an “injury in fact” that is “concrete and partic­
ularized” and “actual or imminent,” (2) that the injury is
fairly traceable to the defendant’s challenged conduct,
and (3) that the injury is likely to be redressed by a fa­
vorable decision. Lujan v. Defenders of Wildlife, 504
U.S. 555, 560-61 (1992). “A plaintiff must demonstrate
standing separately for each form of relief sought but is
not required to demonstrate that a favorable decision
will relieve his every injury.” L.A. Haven Hospice, Inc.
v. Sebelius, 638 F.3d 644, 655 (9th Cir. 2011) (internal
quotation marks and citation omitted). Where a plain­
tiff seeks prospective injunctive relief, he also must
demonstrate “a sufficient likelihood that he will again be
wronged again in a similar way.” City of L.A. v. Lyons,
461 U.S. 95, 111 (1983); see also Summers v. Earth Is­
land Inst., 555 U.S. 488, 493 (2009); Clark v. City of
Lakewood, 259 F.3d 996, 1007 (9th Cir. 2001). In other
words, a plaintiff must establish a “real and immediate
threat of repeated injury.” O’Shea v. Littleton, 414
U.S. 488, 496 (1974); see also Gest v. Bradbury, 443 F.3d
1177, 1181 (9th Cir. 2006). “Standing is determined by
the facts that exist at the time the complaint is filed.”
Clark v. City of Lakewood, 259 F.3d 996, 1006 (9th Cir.
2001).
The Government argues that Mr. Flores does not
have standing to seek prospective equitable relief. Dkt.
57 at 16. According to the Government, Mr. Flores must
establish that he will remain in custody until January 10,
2018, which is 180 days after the BIA affirmed the denial
of withholding of removal. Id. As plaintiffs argue,
however, the Government’s arguments miss the mark by

142a
failing to analyze standing as of the filing of the amended
complaint. See Dkt. 60 at 7-8. When the amended com­
plaint was filed, Mr. Flores had been detained for a pro­
longed period of time without a custody hearing. See
Dkt. 38 at 11 23. This satisfies the “injury in fact” re­
quirement. The injury was caused by the conduct that
is challenged here—the Government’s refusal to provide
custody hearings to non-citizens who are in withholding
only proceedings and have been detained for 180 days—
and would be redressed by a favorable decision. Fur­
thermore, it has been more than 180 days since Mr. Flo­
res finally received a custody hearing, and one of the
questions raised in this lawsuit is whether he is entitled
to another such hearing. Thus any repeated injury re­
quirement is satisfied. Finally, the Government fails to
cite any support for their claim that the 180-day custody
hearing clock restarted when the BIA dismissed Mr.
Flores’s appeal. Mr. Flores has standing.
b.

Ripeness

“The ripeness doctrine is drawn both from Article III
limitations on judicial power and from prudential rea­
sons for refusing to exercise jurisdiction.” Nat’l Park
Hospitality Ass’n v. Dep’t of Interior, 538 U.S. 803, 808
(2003) (internal quotation marks omitted). It is “de­
signed to separate matters that are premature for re­
view because the injury is speculative and may never oc­
cur from those cases that are appropriate for federal
court action.” Wolfson v. Brammer, 616 F.3d 1045,
1057 (9th Cir. 2010) (internal quotation marks and cita­
tion omitted). “Ripeness has both constitutional and
prudential components. . . . The constitutional com­
ponent of ripeness overlaps with the ‘injury in fact’ anal­
ysis for Article III standing.” Id. at 1058. Because

143a
Mr. Flores has sufficiently demonstrated an injury in
fact, as explained above, the constitutional component of
ripeness is satisfied.
Courts weigh two factors to evaluate prudential ripe­
ness: “the fitness of the issues for judicial decision and
the hardship to the parties of withholding court consid­
eration.” Abbott Labs. v. Gardner, 387 U.S. 136, 149
(1967). “A claim is fit for decision if the issues raised
are primarily legal, do not require further factual devel­
opment, and the challenged action is final.” Wolfson,
606 F.3d at 1060. “To meet the hardship requirement,
a litigant must show that withholding review would re­
sult in direct and immediate hardship. . . . ” Id.
(internal quotation marks and citation omitted).
The Government argues that Mr. Flores’s claims are
not ripe because he has not been detained for more than
180 days since the BIA’s decision dismissing his appeal
of the denial of withholding. As noted above, the Gov­
ernment cites no authority for their claim. Whether
Mr. Flores is entitled to another custody hearing is a
question raised in this lawsuit. The issues here are pri­
marily legal, no further factual development is required,
and delaying review could prevent Mr. Flores from re­
ceiving immediately appropriate relief. Mr. Flores’s
claims are both constitutionally and prudentially ripe.

144a
c.

Mootness

“[A] case is moot when the issues presented are no
longer ‘live’ or the parties lack a legally cognizable in­
terest in the outcome.” Cnty. ofL.A. v. Davis, 440 U.S.
652, 631 (1979). Mootness and standing “differ in criti­
cal respects.” Clark v. City of Lakewood, 259 F.3d 996,
1006 (9th Cir. 2001). While standing is determined by
the facts that exist at the time the action is initiated,
mootness inquiries require the Court to assess changing
circumstances that arise after the action has begun. Id.
“The party asserting mootness bears the burden of es­
tablishing that there is no effective relief that the court
can provide.” Forest Guardians v. Johanns, 450 F.3d
455, 561 (9th Cir. 2006).
The Government argues that Mr. Flores’s claims are
moot because he has already received the only relief avail­
able to him under § 2241, a custody hearing. Dkt. 57 at
11-12. But, as Mr. Flores notes, he already has been de­
tained for more than 180 days since his custody hearing
and his removal is currently stayed. Dkt. 60 at 5 n.2.
This lawsuit will decide whether he is entitled to another
hearing given the length of his detention. His individ­
ual claims are not moot.6
6 Even if Mr. Flores’s individual claims were moot, the Court
would still have jurisdiction over the action under the “relation back”
doctrine. See Pitts v. Terrible Herbst, Inc., 653 F.3d 1081, 1090-91
(9th Cir. 2011) (describing how the “relation back” doctrine applies
in class actions); Rivera v. Holder, 307 F.R.D. 539, 548 (W.D. Wash.
2015) (applying the “relation back” doctrine to retain jurisdiction
over immigration class action because the plaintiff’s claims were “in­
herently transitory”); Lyon v. U.S. ICE, 300 F.R.D. 628, 639 (N.D.
Cal. 2014) (holding that immigration detainees’ claims were inher­
ently transitory because “the length of [a non-citizen’s] detention

145a
3.

Mr. Ventura’s claims should be dismissed

Unlike Mr. Flores, who remains in detention pending
resolution of his Ninth Circuit petition for review, Mr.
Ventura’s immigration proceedings concluded and he
was removed to Mexico. “For a habeas petition to con­
tinue to present a live controversy after the petitioner’s
release or deportation . . . there must be some re­
maining ‘collateral consequence’ that may be redressed
by success on the petition.” Abdala v. I.N.S., 488 F.3d
1061,1064 (9th Cir. 2007).
The Government argues that Mr. Ventura’s individ­
ual claims—but not his class claims—are moot because
there is no collateral consequence.7 Dkt. 57 at 13-14; Dkt.
61 at 2. In response, plaintiffs do not assert any collat­
eral consequence. Instead, they argue that Mr. Ven­
tura’s claims should not be dismissed because under the
“relation back” doctrine, a putative class action can sur­
vive the mootness of a named plaintiff’s claims. Dkt. 60
at 4-6 (citing, inter alia, Cnty. of Riverside v. McLaugh­
lin, 500 U.S. 44 (1991); U.S. Parole Commission v.
Geraghty, 445 U.S. 388 (1980); Gerstein v. Pugh, 420
U.S. 103 (1975)).

cannot be ascertained at the outset of a case and may be ended be­
fore class certification by various circumstances”).
7 As the Supreme Court has explained, “[T]he fact that a named
plaintiffs substantive claims are mooted due to an occurrence other
than a judgment on the merits does not mean that all the other issues
in the case are mooted. A plaintiff who brings a class action pre­
sents two separate issues for judicial resolution. One is the claim
on the merits; the other is the claim that he is entitled to represent
a class.” U.S. Parole Commission v. Geraghty, 445 U.S. 388, 402
(1980).

146a
Given that there is no remaining collateral conse­
quence, Mr. Ventura’s individual claims should be dis­
missed as moot. Moreover, even assuming the “rela­
tion back” doctrine applied here, Mr. Ventura could not
represent the amended class because it is limited to
those subject to prolonged detention, and Mr. Ventura
was never in this situation. Accordingly, Mr. Ventura’s
individual and class claims should be dismissed.
4.

The first cause of action should be dismissed

This action claims that (1) the Government violates
8 U.S.C. § 1226 by failing to provide plaintiffs and putative
class members with custody hearings immediately upon
their placement in withholding only proceedings, (2) the
Government violates 8 U.S.C. § 1101 et seq. by failing to
provide plaintiffs and putative class members with cus­
tody hearings once their detention becomes prolonged,
and (3) the Government’s policy of denying plaintiffs and
putative class members custody hearings violates the
Due Process Clause. Dkt. 38 at 24-25.
On July 6, 2017, the Ninth Circuit held that non­
citizens in withholding only proceedings are detained
under 8 U.S.C. § 1231(a) instead of § 1226. PadillaRamirez, 862 F.3d at 886. Plaintiffs “recognize that
Padilla-Ramirez compels dismissal of their claims chal­
lenging the government’s failure to provide immediate
custody hearings.” Dkt. 60 at 2. Accordingly, plain­
tiffs’ first cause of action should be dismissed.
Although the Government also seeks dismissal of the
remaining claims on the merits, Dkt. 57 at 16-21, there
is no serious dispute that the amended petition survives
Rule 12(b)(6) review.

147a
Plaintiffs’ amended motion for class certification8

B.

Mr. Flores seeks to represent a class defined as “All
individuals who are placed in withholding-only proceed­
ings under 8 C.F.R. § 1208.31(e) in the Western District
of Washington who are detained or subject to an order
of detention.” Dkt. 38 at 22. The Government opposes
class certification. As discussed below, the Court should
amend the class definition and grant Mr. Ventura’s mo­
tion.
1.

Legal standards

A district court has broad discretion in making a class
certification determination under Federal Rule of Civil
Procedure 23.9 Navellier v. Sletten, 262 F.3d 923, 941
(9th Cir. 2001); see also Reiter v. Sonotone Corp., 442
U.S. 330, 345 (1979). Nonetheless, a court must exer­
cise its discretion “within the framework of Rule 23.”
8 The amended motion for class certification was filed when all
three plaintiffs were a part of the lawsuit. As noted above, Mr.
Martinez has been dismissed, and this Report and Recommendation
concludes that Mr. Ventura should be dismissed. Accordingly, the
Court will discuss the motion as though it was filed by only Mr. Flo­
res, and it will omit discussion of the parties’ arguments regarding
Mr. Martinez and Mr. Ventura.
9 Rule 23 is applicable to habeas actions through Federal Rule of
Civil Procedure 81(a)(4), which provides that the Federal Rules of
Civil Procedure are applicable to habeas proceedings to the extent
that the practice in such proceedings “is not specified in a federal
statute, the Rules Governing Section 2254 Cases, or the Rules Gov­
erning Section 2255 Proceedings, and has previously conformed to
the practice in civil actions.” Fed. R. Civ. P. 81(a)(4). “While‘or­
dinarily disfavored,’ the Ninth Circuit has recognized that class ac­
tions may be brought pursuant to habeas corpus.” Rodriguez v.
Hayes, 591 F.3d 1105,1117 (9th Cir. 2010) (quoting Coxv. McCarthy,
829 F.2d 800, 804 (9th Cir. 1987)).

148a
Navellier, 262 F.3d at 941. A district court may certify
a class only if the plaintiff establishes:
(1) the class is so numerous that joinder of all mem­
bers is impracticable;
(2) there are questions of law or fact common to the
class;
(3) the claims or defenses of the representative par­
ties are typical of the claims or defenses of the class;
and
(4) the representative parties will fairly and ade­
quately protect the interests of the class.
Fed. R. Civ. P. 23(a); see also Wal-Mart Stores, Inc. v.
Dukes, 564 U.S. 338, 345 (2011); Rodriguez v. Hayes
(“Rodriguez I”), 591 F.3d 1105, 1122 (9th Cir. 2010).
The plaintiff also must fall into one of three catego­
ries under Rule 23(b). Dukes, 564 U.S. at 345-46; see
also Leyva v. Medline Indus. Inc., 716 F.3d 510, 512 (9th
Cir. 2013). Mr. Flores seeks certification under Rule
23(b)(2), which provides that “the party opposing the
class has acted or refused to act on grounds that apply
generally to the class, so that final injunctive relief or
corresponding declaratory relief is appropriate respect­
ing the class as a whole.” Fed. R. Civ. P. 23(b)(2).
Rule 23 “does not set forth a mere pleading stand­
ard.” Dukes, 131 S. Ct. at 2551. Certification is proper
“only if ‘the trial court is satisfied, after a rigorous anal­
ysis, that the prerequisites of Rule 23(a) have been sat­
isfied. 1 >> Id. (quoting Gen. Tel. Co. of Sw. v. Falcon,
457 U.S. 147, 161 (1982)).

149a
2. Class definition
Before addressing the Rule 23(a) requirements,
the Court must consider the class definition. As the
Court previously explained to the parties, the class Mr.
Flores seeks to represent—’’All individuals who are
placed in withholding only proceedings under 8 C.F.R.
§ 1208.31(e) in the Western District of Washington who
are detained or subject to an order of detention”—is
overbroad. Dkt. 62. “Where appropriate, the district
court may redefine the class.” Armstrong v. Davis, 275
F.3d 849, 871 n.28 (9th Cir. 2001). Accordingly, the
Court proposed an amended class definition: “All indi­
viduals who (1) were placed in withholding only proceed­
ings under 8 C.F.R. § 1208.31(e) in the Western District
of Washington after having a removal order reinstated,
and (2) have been detained for 180 days (a) without a
custody hearing or (b) since receiving a custody hear­
ing” (“the proposed class” or “the class definition”).
Dkt. 62 at 2. Mr. Flores approves of this change. Dkt.
64. The Government does not, arguing that even the
proposed class cannot be certified under Rule 23. As
discussed below, however, the Government’s arguments
against class certification are not persuasive.
3. Numerosity
The numerosity requirement is satisfied when “the
class is so numerous that joinder of all members is im­
practicable.” Fed. R. Civ. P. 23(a)(1). There is no thres­
hold number of class members that automatically satisfies
this requirement. General Tel. Co. Nw. v. EEOC, 446
U.S. 318, 330 (1980). “Relatively small class sizes have
been found to satisfy this requirement where joinder is
still found impractical.” Rivera v. Holder, 307 F.R.D.

150a
539, 550 (W.D. Wash. 2015); see also McCluskey v. Trus­
tees of Red Dot Corp. Employee Stock Ownership Plan
& Trust, 268 F.R.D. 670, 673 (W.D. Wash. 2010) (collect­
ing cases, including eight cases that approved of classes
comprised of between seven and twenty identifiable mem­
bers). In determining whether joinder is impracticable
when the class size is not great, courts consider factors
including “judicial economy, geographic dispersal of the
class members, the ability of individual claimants to
bring separate suits, and whether plaintiffs seek pro­
spective relief affecting future class members.” Ri­
vera, 307 F.R.D. at 550.
The evidence before the Court establishes that over
the course of a year, there are likely over 90 individuals
at the Northwest Detention Center who are subject to
reinstatement of removal and are referred to withhold­
ing only proceedings after demonstrating a reasonable
fear. Dkt. 32 at 117; see also Dkt. 65-1 at 113 (identifying
58 detainees at the Northwest Detention Center who
had reinstated removal orders and were in withholding
only proceedings on September 16, 2017); Dkt. 29-2 at
11 6 (identifying 70 withholding only cases pending in the
Tacoma Immigration Court as of January 12, 2017 for
detained individuals). Not all of these individuals are
detained for a prolonged period of time, and therefore
they may not become members of the proposed class.
As of October 2, 2017, however, there were at least 10
individuals at the Northwest Detention Center who
would fall within the proposed class. Dkt. 65-1 at H 3.
The parties dispute whether there is sufficient evi­
dence to satisfy the numerosity requirement. See Dkt.
41 at 13-18; Dkt. 45 at 20-21; Dkt. 65 at 4-5; Dkt. 66 at
4-6. The Court concludes that although the currently

151a
identifiable class size is small, joinder is impracticable.
First, judicial economy will be served best by certifying
the proposed class. The primary relief sought is an in­
junction ordering the Government to provide custody
hearings for class members, which would result in a
change in the current policy that authorizes prolonged
detention without a custody hearing before an IJ. Ra­
ther than dealing with class members’ claims piecemeal,
it would be more efficient to handle them as a group.
Second, the proposed class is comprised of people who
are likely to have difficulty pursuing their claims indi­
vidually because of financial inability, lack of represen­
tation, lack of knowledge, and perhaps language difficul­
ties. Certifying a class would ensure that they have
representation and are able to benefit from any favora­
ble outcome. Finally, Mr. Flores seeks relief that will
apply to future class members, and therefore the ulti­
mate number of people affected by a favorable ruling in
this case will be greater than 10. Cf. Rivera, 307 F.R.D.
at 550 (finding joinder impractical “especially given the
transient nature of the class and the inclusion of future
class members”). For these reasons, numerosity is sat­
isfied.
4.

Commonality

To satisfy commonality, a plaintiff must demonstrate
that “there are common questions of law or fact to
the class.” Fed. R. Civ. P. 23(a)(2). Commonality is
met through the existence of a “common contention”
that is of “such a nature that it is capable of classwide
resolution.” Dukes, 564 U.S. at 350. A contention is
capable of classwide resolution if “the determination of
its truth or falsity will resolve an issue that is central to
the validity of each one of the claims in one stroke.” Id.

152a
Accordingly, “what matters to class certification . . .
is not the raising of common questions—even in droves
—but, rather the capacity of a classwide proceeding to
generate common answers apt to drive the resolution of
the litigation.” Id. Commonality poses a “limited bur­
den” because it “only requires a single significant ques­
tion of law or fact.” Mazza v. Am. Honda Motor Co.,
Inc., 666 F.3d 581, 589 (9th Cir. 2012).
Mr. Flores argues that commonality is satisfied be­
cause there is a common question of law and fact shared
by all class members: whether all individuals in with­
holding only proceedings with reinstated removal orders
are entitled to automatic custody hearings once their de­
tention becomes prolonged, and every six months there­
after. Dkts. 66 at 7; Dkt. 64 at 4; Dkt. 41 at 17-20. The
Court agrees. The answer to this central question will
decide the case, and if the Court rules in favor of the
class, all class members will be entitled to the same re­
lief, namely custody hearings before an IJ. Commonal­
ity is satisfied.10
5.

Typicality

“Typicality refers to the nature of the claim or de­
fense of the class representative, and not to the specific
facts from which it arose or the relief sought.” Hanon
v. Dataproducts Corp., 976 F.2d 497, 508 (9th Cir. 1992).
In determining typicality, courts consider “whether other
members have the same or similar injury, whether the
action is based on conduct which is not unique to the
named plaintiffs, and whether other class members have
10 The Government addresses the commonality and typicality fac­
tors together. As their arguments are more directed at typicality,
the Court will address them in the next section.

153a
been injured by the same course of conduct.” Id. at
508. “Under the rule’s permissive standards, repre­
sentative claims are ‘typical’ if they are reasonably co­
extensive with those of absent class members; they need
not be substantially identical.” Parsons v. Ryan, 754
F.3d 657, 685 (9th Cir. 2014) (quotation marks and cita­
tions omitted).
Mr. Flores argues that, like members of the proposed
class, he is currently subject to prolonged detention
without an opportunity to obtain an individualized cus­
tody hearing before an IJ. See Dkt. 66 at 4; Dkt. 41 at
21-22. He further contends that he and members of the
proposed class are all subject to the Government’s uni­
form policy and practice that denies them custody hear­
ings even after detention becomes prolonged. See Dkt.
41 at 21. The Court agrees that Mr. Flores satisfies the
He and members of the
typicality requirement,
amended class suffer the same or a similar injury be­
cause they all have been detained for a prolonged period
without a custody hearing before an IJ, and their inju­
ries have been caused by the same governmental con­
duct.
The Government nevertheless argues that Mr. Flo­
res’s injury is not the same as other members of the pro­
posed class because he received a custody hearing.
Dkt. 45 at 14. While Mr. Flores’s injury is not identical
to those of class members who have not received a cus­
tody hearing, it is similar enough to satisfy the typicality
requirement because it has been over 180 days since Mr.
Flores’s custody hearing, and therefore he, like mem­
bers of the proposed class, has been detained for a pro­
longed period without a custody hearing. See Dkt. 66
at 7.

154a
The Government also argues that Mr. Flores is not a
member of the proposed class because his withholding
only proceedings concluded with a denial, and thus he is
no longer “placed in withholding only proceedings.”
Dkt. 65 at 2-3. The class definition, however, applies to
individuals who “were placed in withholding only pro­
ceedings,” which includes individuals who are now seek­
ing Ninth Circuit review of the denial of withholding.
As such, he continues to be a member of the class.
Finally, the Government asserts the same issues
of standing, ripeness, and mootness that the Court
discussed above. Dkt. 45 at 11-14, 17-19; Dkt. 65 at 23. The arguments remain unpersuasive. Mr. Flores’s
claims are typical of class members’ claims.
6.

Adequacy

A plaintiff seeking to represent a class must be able
to “fairly and adequately protect the interests” of all
class members. Fed. R. Civ. P. 23(a)(4). “Resolution
of two questions determines legal adequacy: (1) do the
named plaintiffs and their counsel have any conflicts of
interest with other class members and (2) will the named
plaintiffs and their counsel prosecute the action vigor­
ously on behalf of the class?” Hanlon v. Chrysler
Corp., 150 F.3d 1011, 1020 (9th Cir. 1998).
Mr. Flores contends that he will fairly and ade­
quately protect class members’ interests because he
seeks the same relief as class members and has no an­
tagonistic interests. Dkt. 41 at 22-23. He contends that
his goal is to successfully challenge the Government’s
policies regarding detention and custody hearings, which
would affect both himself and proposed class members.
Id. The Government opposes a finding of adequacy on

155a
the same grounds it opposed a finding of commonality
and typicality. Dkt. 45 at 19-20. The Court has already
addressed those arguments and found them unpersua­
sive. Mr. Flores is an adequate class representative.
Furthermore, based on the declaration of Mr. Flores’s
counsel, Dkt. 10, the Court is satisfied that class counsel
has sufficient experience and will pursue the action vig­
orously. Adequacy is satisfied.
7.

Rule 23(b)(2) certification

Certification of a class is appropriate under Rule
23(b)(2) where “the party opposing the class has acted
or refused to act on grounds that apply generally to the
class, so that final injunctive relief or corresponding de­
claratory relief is appropriate respecting the class as a
whole.” Fed. R. Civ. P. 23(b).
The key to the (b)(2) class is the indivisible nature of
the injunctive or declaratory remedy warranted—the
notion that the conduct is such that it can be enjoined
or declared unlawful only as to all of the class mem­
bers or as to none of them. ... In other words,
Rule 23(b)(2) applies only when a single injunction or
declaratory judgment would provide relief to each
member of the class. It does not authorize class cer­
tification when each individual class member would
be entitled to a different injunction or declaratory
judgment against the defendant.
Dukes, 564 U.S. at 360 (internal quotations and citations
omitted).
Mr. Flores argues that Rule 23(b)(2) is satisfied be­
cause he challenges and seeks declaratory and injunc­
tive relief from systemic policies and practices that deny

156a
him and proposed class members the right to an auto­
matic custody hearing before an IJ after six months de­
tention and every six months thereafter. Dkt. 41 at 24;
Dkt. 66 at 7. The Government responds that a single
injunction would not apply to all class members, citing
the fact that Mr. Flores already received a custody hear­
ing. Dkt. 65 at 5-6; see also Dkt. 45 at 21-22. As dis­
cussed above, however, Mr. Flores seeks another cus­
tody hearing.
The Government has a policy of detaining proposed
class members for prolonged periods of time without a
custody hearing before an IJ. This lawsuit challenges
that policy. If Mr. Flores prevails, all class members
will be entitled to custody hearings after six months of
detention and then every six months until they are re­
leased. It does not matter whether the class members’
withholding only proceedings are pending before an IJ,
the BIA, or are being appealed to the Ninth Circuit. A
single injunction would address all claims raised. There­
fore, the Court concludes that Rule 23(b)(2) is satisfied.
CONCLUSION AND RIGHT TO OBJECT
The Court recommends that the Government’s mo­
tion to dismiss be GRANTED in part and DENIED in
part. The Court also recommends that plaintiffs amen­
ded motion for class certification be GRANTED subject
to an amended class definition. A proposed Order ac­
companies this Report and Recommendation.
This Report and Recommendation is not an appeala­
ble order. Therefore a notice of appeal seeking review
in the Court of Appeals for the Ninth Circuit should not
be filed until the assigned District Judge enters a judg­
ment in the case. Objections, however, may be filed

157a
and served upon all parties no later than November 1,
2017. The Clerk should note the matter for November
3, 2017, as ready for the District Judge’s consideration if
no objection is filed. If objections are filed, any re­
sponse is due within 14 days after being served with the
objections. A party filing an objection must note the
matter for the Court’s consideration 14 days from the
date the objection is filed and served. The matter will
then be ready for the Court’s consideration on the date
the response is due. Objections and responses shall not
exceed 24 pages. The failure to timely object may af­
fect the right to appeal.
DATED this 17th day of Oct., 2017.
/s/ BRIAN A. TSUCHIDA
Brian A. Tsuchida
United States Magistrate Judge

158a
APPENDIX H
8 U.S.C. 1231(a) provides:
Detention and removal of aliens ordered removed
(a)

Detention, release, and removal of aliens ordered re­
moved
(1) Removal period
(A)

In general

Except as otherwise provided in this section,
when an alien is ordered removed, the Attorney
General shall remove the alien from the United
States within a period of 90 days (in this section
referred to as the “removal period”).
(B)

Beginning of period

The removal period begins on the latest of the
following:
The date the order of removal be­
(i)
comes administratively final.
(ii)
If the removal order is judicially re­
viewed and if a court orders a stay of the re­
moval of the alien, the date of the court’s final
order.
(iii) If the alien is detained or confined (ex­
cept under an immigration process), the date
the alien is released from detention or confine­
ment.

159a
(C)

Suspension of period

The removal period shall be extended beyond a
period of 90 days and the alien may remain in de­
tention during such extended period if the alien
fails or refuses to make timely application in good
faith for travel or other documents necessary to
the alien’s departure or conspires or acts to pre­
vent the alien’s removal subject to an order of re­
moval.
(2) Detention
During the removal period, the Attorney General
shall detain the alien. Under no circumstance dur­
ing the removal period shall the Attorney General re­
lease an alien who has been found inadmissible under
section 1182(a)(2) or 1182(a)(3)(B) of this title or de­
portable under section 1227(a)(2) or 1227(a)(4)(B) of
this title.
(3) Supervision after 90-day period
If the alien does not leave or is not removed within
the removal period, the alien, pending removal, shall
be subject to supervision under regulations prescribed
by the Attorney General. The regulations shall in­
clude provisions requiring the alien—
(A) to appear before an immigration officer
periodically for identification;
(B) to submit, if necessary, to a medical and
psychiatric examination at the expense of the
United States Government;

160a
(C) to give information under oath about the
alien’s nationality, circumstances, habits, associa­
tions, and activities, and other information the At­
torney General considers appropriate; and
(D) to obey reasonable written restrictions
on the alien’s conduct or activities that the Attor­
ney General prescribes for the alien.
(4) Aliens imprisoned, arrested, or on parole, super­
vised release, or probation
(A)

In general

Except as provided in section 259(a)1 of title 42
and paragraph (2),2 the Attorney General may not
remove an alien who is sentenced to imprisonment
until the alien is released from imprisonment.
Parole, supervised release, probation, or possibil­
ity of arrest or further imprisonment is not a rea­
son to defer removal.
(B)

Exception for removal of nonviolent offend­
ers prior to completion of sentence of impris­
onment

The Attorney General is authorized to remove
an alien in accordance with applicable procedures
under this chapter before the alien has completed
a sentence of imprisonment—
in the case of an alien in the custody of
(i)
the Attorney General, if the Attorney General
determines that (I) the alien is confined pursu­
ant to a final conviction for a nonviolent offense
1 See References in Text note below.
2 So in original. Probably should be “subparagraph (B),”.

161a
(other than an offense related to smuggling or
harboring of aliens or an offense described in
section 1101(a)(43)(B), (C), (E), (I), or (L) of
this title3 and (II) the removal of the alien is ap­
propriate and in the best interest of the United
States; or
(ii) in the case of an alien in the custody of
a State (or a political subdivision of a State),
if the chief State official exercising authority
with respect to the incarceration of the alien
determines that (I) the alien is confined pursu­
ant to a final conviction for a nonviolent offense
(other than an offense described in section
1101(a)(43)(C) or (E) of this title), (II) the re­
moval is appropriate and in the best interest of
the State, and (III) submits a written request
to the Attorney General that such alien be so
removed.
(C) Notice
Any alien removed pursuant to this paragraph
shall be notified of the penalties under the laws of
the United States relating to the reentry of de­
ported aliens, particularly the expanded penalties
for aliens removed under subparagraph (B).
(D)

No private right

No cause or claim may be asserted under this
paragraph against any official of the United States

3 So in original.
thesis.

Probably should be followed by a closing paren­

162a
or of any State to compel the release, removal, or
consideration for release or removal of any alien.
(5) Reinstatement of removal orders against aliens
illegally reentering
If the Attorney General finds that an alien has
reentered the United States illegally after having
been removed or having departed voluntarily, under
an order of removal, the prior order of removal is re­
instated from its original date and is not subject to
being reopened or reviewed, the alien is not eligible
and may not apply for any relief under this chapter,
and the alien shall be removed under the prior order
at any time after the reentry.
(6) Inadmissible or criminal aliens
An alien ordered removed who is inadmissible un­
der section 1182 of this title, removable under section
1227(a)(1)(C), 1227(a)(2), or 1227(a)(4) of this title or
who has been determined by the Attorney General to
be a risk to the community or unlikely to comply with
the order of removal, may be detained beyond the re­
moval period and, if released, shall be subject to the
terms of supervision in paragraph (3).
(7) Employment authorization
No alien ordered removed shall be eligible to re­
ceive authorization to be employed in the United States
unless the Attorney General makes a specific finding
that—
(A) the alien cannot be removed due to the
refusal of all countries designated by the alien or
under this section to receive the alien, or

163a
(B) the removal of the alien is otherwise im­
practicable or contrary to the public interest.

i

